In the 'uprein (Court of

t!jE

EtnIteb 'tate

CHAZON QTA: QUANTITATIVE TRADING ARTISTS, LLC.,
and LAWRENCE I. FEJOKWU,
Applicants/Petitioners

V.

COMMODITY FUTURES TRADING COMMISSION,
Respondent.

APPENDIX

12/13/2018 United States Court of Appeals for the Third Circuit Opinion
02/20/2019 United States Court of Appeals for the Third Circuit Order on
Petition for Panel Rehearing

APPENDIX A

Case: 17-2408 Document: 003113108610 Page: 1

Date Filed: 12/13/2018

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 17-2408

CHAZON QTA QUANTITATIVE TRADING ARTISTS, L.L.C.,
and LAWRENCE I. FEJOKWU,
Petitioners
V.

COMMODITY FUTURES TRADING COMMISSION

On Petition for Review from the Commodity Futures Trading Commission
(CFTC Docket No. CRAA 16-0 1)
Submitted under Third Circuit L.A.R. 34.1(a)
October 29, 2018
Before: CHAGARES, JORDAN, and VANASKIE, Circuit Judges.
(Filed: December 13, 2018)

OPINION*

CHAGARES, Circuit Judge.
Lawrence Fejokwu and his company Chazon QTA Quantitative Trading Artists,
L.L.C. ("Chazon") were permanently barred from membership in the National Futures
*

This disposition is not an opinion of the full Court and under I.O.P. 5.7 does not
constitute binding precedent.

Case: 17-2408 Document: 003113108610 Page: 2

Date Filed: 12/13/2018

Association (NFA) for failing to cooperate promptly and fully with an NFA investigation.
They appealed to the Commodity Futures Trading Commission (CFTC), which upheld
the NFA's finding and sanction. Now they petition this Court to review that decision
under 7 U.S.C. § 21(i)(4). We will deny the petition.
I.
Because we write only for the parties, we recite just those facts necessary to our
decision.
Fejokwu is the founder of two foundations, the Vision Foundations, that focus on
pan-African socioeconomic development. In April 2011, Chazoneering, S.A., an entity
solely owned and operated by Fejokwu, transferred $1.6 million to the Vision
Foundations. The Vision Foundations used that money to fund the Maria Funds, a pair of
commodity pools operated by Chazon. Fejokwu registered Chazon with the NFA as a
commodities pool operator, with himself as its principal.
From the beginning, the Maria Funds suffered significant losses. The funds had
only $125,000 remaining by March 2014.
At that point, Fejokwu applied to withdraw Chazon from the NFA to save costs.
Fejokwu argued that he and Chazon were exempt from NFA registration under the socalled small-pool exemption, 17 C.F.R. § 4.13(a)(2). That exemption provides that a
commodities pool operator need not register with the NFA if none of its pools has more
than 15 participants and the total gross capitalization of all of its pools does not exceed
$400,000, excluding the operator's and principal's own money.

2

Case: 17-2408 Document: 003113108610 Page: 3

Date Piled: 12/13/2018

Fejokwu's withdrawal request triggered an NFA investigation. Fejokwu at first
cooperated with the investigation, providing on request the Vision Foundations'
organizational documents, balance sheets, and ledgers, the Maria Funds' 2013 bank
statements, and Chazon's bank and broker statements. On further request, Fejokwu also
provided the Maria Funds' and the Vision Foundations' bank statements from 2011.
The NFA then asked for Chazoneering's bank statements. Fejokwu balked at this
request. He felt that he had already provided sufficient evidence that the small-pool
exemption applied and that the NFA was not entitled to Chazoneering's documents since
that entity was not an NFA member and did not trade futures. He ultimately provided the
LLC agreement and 2013 and 2014 bank statements for Chazoneering, LLC

a

-

different entity than the one that indirectly capitalized the Maria Funds.' But he refused
to provide any Chazoneering bank statements from 2011, when the Vision Foundations
were funded. He then added the Vision Foundations as listed principals of Chazon,
which arguably made review of Chazoneering's bank statements unnecessary

because

-

listing the Visions Foundations as Chazon principals made clear that all the Maria Funds'
money came from Chazon principals. When the NFA still insisted, Fejokwu asked to
discuss the request with NFA lawyers or supervisors. Rather than give him that
opportunity, the NFA concluded its investigation with a finding that Fejokwu had failed
to cooperate.

'In this opinion, we differentiate between the Chazoneering entities only when the
distinction is relevant.
3

Case: 17-2408 Document: 003113108610 Page: 4

Date Filed: 12/13/2018

The NFA then filed a formal complaint charging Fejokwu and Chazon with
violating NFA Compliance Rule 2-5. That rule requires each NFA member and associate
to cooperate promptly and fully with the NFA in any NFA investigation, inquiry, audit,
examination, or proceeding regarding compliance with NFA requirements or any NFA
disciplinary or arbitration proceeding. Fejokwu and Chazon filed an answer, and the
NFA held a hearing, at which Fejokwu and an NFA examiner testified.
The NFA hearing panel issued a decision finding that Fejokwu and Chazon had
willfully violated Rule 2-5. The panel determined that the NFA legitimately requested
Chazoneering's bank statements from the time it funded the Vision Foundations because
the NFA questioned the ultimate source of Chazon' s capital contributions and thus its
eligibility for the small-pool exemption, among other reasons. The panel found that
Fejokwu was "very vague" about where Chazoneering got the money and that he
"actually appeared to be trying to deceive NFA" about the different Chazoneering
entities, which raised issues about his credibility. Appendix ("App.") 39. "Moreover,"
the panel explained, "the sudden listing of the Vision Foundations.

.

.

appeared to have

been an attempt by Fejokwu to find a reason not to provide the Chazoneering
statements," which "gave NFA legitimate concerns as to the funding of Chazoneering."
App. 40. Since the NFA's request for the Chazoneering bank statements was legitimate,
the panel found that Fejokwu and Chazon willfully violated Rule 2-5 by refusing to
provide them. As a sanction, the panel permanently barred Fejokwu and Chazon from
NFA membership.

ru

Case: 17-2408 Document: 003113108610 Page: 5

Date Filed: 12/13/2018

Fejokwu and Chazon appealed to the NFA Appeals Committee, which upheld the
panel's conclusion and declined to modify its sanction. On the sanction, the appeals
committee emphasized the importance of member cooperation to the NFA' s
effectiveness. It also rejected Fejokwu's argument that the violations were not willful,
finding them to be "a conscious decision" and pointing out that Fejokwu "knowingly
misled" the examination team about the different Chazoneering entities. App. 21-22.
While there was no evidence that Fejokwu harmed customers or committed fraud, the
committee explained, "that may simply be because the documents [Fejokwu and Chazon]
refused to produce contained or led to such evidence." App. 22. Given this "very grave
violation" and the "significance of' Rule 2-5, the appeals committee found the sanction
"completely appropriate." App. 22.
Fejokwu and Chazon appealed this decision to the CFTC, which summarily
affirmed. They then timely petitioned for review.
II.
The NFA and CFTC had jurisdiction over the underlying disciplinary proceeding
under 7 U.S.C. § 21(b), (h). We have appellate jurisdiction to review the CFTC's order
upholding the NFA's decision under 7 U.S.C. § 21(i)(4). We are satisfied that
jurisdiction is proper in this Court rather than in the Court of Appeals for the Second
Circuit despite Chazon's New York post-office box since the record suggests that
Fejokwu carried out Chazon's business out of his home office in Guttenberg, New Jersey.
See 7 U.S.C. §

9(11)(B)(ii)(I), 21(i)(4). We are also satisfied -and the CFTC does

5

Case: 17-2408 Document: 003113108610 Page: 6

not contest

Date Filed: 12/13/2018

that we have jurisdiction over the now-represented corporate appellant

-

Chazon.
We review the factual determinations of an administrative agency "to determine
whether there is substantial evidence to support [its] decision." Plummer v. Apfel, 186
F.3d 422, 427 (3d Cir. 1999). We review the agency's decision to uphold sanctions for
abuse of discretion. See, e.g., Butz v. Glover Livestock Comm'n Co., Inc., 411 U.S. 182,
185-86 (1973).
III.
Fejokwu and Chazon argue that substantial evidence does not show that they
willfully violated Rule 2-5 and that a permanent bar was unwarranted and unjustified.
We disagree.

FA
There is no dispute that Fejokwu and Chazon could have provided Chazoneering's
2011 bank statements but refused. Fejokwu instead argues that his refusal to cooperate
did not violate Rule 2-5 because the NFA had no legitimate regulatory reason for
requesting those statements. The NFA found that there was a legitimate regulatory need
to confirm Chazon's eligibility for the small-pool exemption. We conclude that
substantial evidence supported that finding.
Fejokwu relied on the small-pool exemption to withdraw from the NFA, giving it
a legitimate reason to investigate Chazon's eligibility for this exemption. Since the
exemption requires aggregate nonproprietary capital contributions to be under $400,000,
the NFA had legitimate grounds to confirm that Chazoneering' s $1.6 million investment
No

Case: 17-2408 Document: 003113108610 Page: 7

was in fact proprietary

Date Filed: 12/13/2018

that is, legitimate business income of Chazoneering (and thus

-

of Fejokwu) and not merely customer contributions funneled through Chazoneering to
invest in the Maria Funds without proper registration. Inquiring where Chazoneering got
the $1.6 million was fair game. And Fejokwu gave the NFA reason to be suspicious of
its source. He was cagey about the different Chazoneering entities, vague on
Chazoneering's actual business, and protective of only the bank statements that showed
where Chazoneering got these funds. The NFA thus legitimately insisted on reviewing
Chazoneering's 2011 bank statements to confirm Chazon's eligibility for the small-pool
exemption.2 Fejokwu's refusal may not have been in bad faith, but no doubt it was
voluntary and intentional

which makes it "willful" in the civil context. See, e.g.,

-

Safeco Ins. Co. of Am. v. Burr, 551 U.S. 47, 57 & n.9 (2007); Vineland Fireworks Co. v.
Bureau of Alcohol, Tobacco, Firearms & Explosives, 544 F.3d 509, 517 (3d Cir. 2008)
("[T]he legal definition of 'willful'

.

.

.

is '[v]oluntary and intentional, but not necessarily

malicious." (quoting Black's Law Dictionary 1630 (8th ed. 2004)) (alteration in
original)). Thus, substantial evidence shows that Fejokwu and Chazon willfully violated
Rule 2-5.

2

The NFA hearing panel also concluded that the NFA had legitimately asked for
Chazoneering's 2011 bank statements to determine whether Chazon had any unlisted
principals. Fejokwu argues that Chazoneering's bank statements would not show
anyone's direct contributions to Chazon or direct or indirect ownership interests in
Chazon, and so could not show unlisted principals. Since we conclude that confirming
eligibility for the small-pool exemption was a legitimate regulatory reason to review the
2011 statements, we do not reach this alternative justification.
7

Case: 17-2408 Document: 003113108610 Page: 8

Date Filed: 12/13/2018

p p

Fejokwu also argues that the CFTC abused its discretion by upholding the NFA's
permanent membership ban. We will overturn an agency's decision to uphold sanctions
as an abuse of discretion only if the sanctions are "unwarranted in law or.

.

.

without

justification in fact." Butz, 411 U.S. at 185-86 (alteration in original). "Typically, such
an abuse of discretion will involve either a sanction palpably disproportionate to the
violation or a failure to support the sanction chosen with a meaningful statement of
'findings and conclusions, and the reasons or basis therefor, on all the material issues of
fact, law, or discretion presented on the record." Reddy v. Commodity Futures Trading
Comm'n, 191 F.3d 109, 124 (2d Cir. 1999) (quoting 5 U.S.C. § 557(c)(3)(A)).
Fejokwu first argues that a permanent ban was palpably disproportionate to the
violation. In comparison to other cases, he argues, his would be "the only instance where
the NFA has permanently banned a first-time offender for violating Rule 2-5 without any
additional aggravating" circumstances. Fejokwu Br. 46. But, on the contrary, there were
aggravating circumstances here. Fejokwu was not merely intransigent; the NFA found
him deceptive, misleading, and intentionally vague. No doubt the sanction is severe, but
given these circumstances we cannot say that it is unwarranted in law or without
justification in fact. Thus the CFTC did not abuse its discretion by upholding it.
Fejokwu next argues that the CFTC's summary decision fails to provide a
meaningful statement of the reason for the sanction. We disagree. Both the NFA panel
and appeals committee discussed the reasons for the sanction at some length. These
decisions emphasized the importance of Rule 2-5, but also Fejokwu',s misleading conduct
8

Case: 17-2408 Document: 003113108610 Page: 9

Date Filed: 12/13/2018

in the investigation and hearing. The CFTC expressly adopted these findings and
conclusions, and it also held that "the choice of sanction is neither excessive nor
oppressive in light of the violation and the public interest." App. 7. No doubt Fejokwu
wishes that the NFA had credited other, mitigating factors, but he still received a
meaningful statement of the findings, conclusions, and reasons underpinning the chosen
sanction. We cannot conclude that the CFTC abused its discretion by adopting the
NFA's reasons and upholding its sanction.
Iv.
For these reasons, we will deny the petition for review.

W
,

APPENDIX B

Case: 17-2408 Document: 003113165439 Page: 1

Date Filed: 02/20/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 17-2408

CHAZON QTA QUANTITATIVE TRADING ARTISTS, L.L.C.,
and LAWRENCE I. FEJOKWU,
Petitioners
V.

COMMODITY FUTURES TRADING COMMISSION

On Appeal from the Commodity Futures Trading Commission
(Case No. CRAA 16-01)

SUR PETITION FOR PANEL REHEARING

Present: CHAGARES and JORDAN, Circuit Judges*
The petition for rehearing filed by petitioners in the above-entitled case
having been submitted to the judges who participated in the decision of this Court, it is
hereby 0 R D E R E D that the petition for rehearing by the panel is denied.
BY THE COURT,
s/Michael A. Chagares
Circuit Judge
Dated: February 20, 2019
Lmr/cc: Tadhg Dooley
Melissa Chiang
Robert A. Schwartz

*

The Honorable Thomas I. Vanaskie, a member of the merits panel that considered this
matter, retired from the Court on January 1, 2019. The request for panel rehearing has
been submitted to the remaining members of the merits panel.

